WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-332

Steven E. Davis, et al.

v.

Bank of America Corporation, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Mortgage Electronic Registration Systems, Inc. and
MERSCORP Holdings, Inc.
□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

October 15, 2019

(Type or print) Name

Andrew C. Glass
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

K&L Gates LLP

Address

State Street Financial Center, One Lincoln Street

City & State
Phone

Boston, Massachusetts

617-261-3100

Zip
Email

02111

andrew.glass@klgates.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Please see attached

Service List
Steven E. Davis
1752 W. Edmaire Avenue
Chicago, IL 60643

Ralph E. and Joan M. Holley
3075 Book Road
Naperville, IL 60567

Steven Segura
3925 Triumvera Drive, Apt. 7G
Glenview, IL 60025

Ulsen and Georgia Anderson
740 Old Meadow Road
Matteson, IL 60443

Zdzislaw Krajewski
2501 N. 73rd Avenue
Elmwood Park, IL 60707

Cheryl Bell
14209 S. Edbrooke Avenue
Calumet Park, IL 60827

Peggy L. Strong
270 Duke Drive
Lynwood, IL 60411

Elizabeth Robinson
805 7th Avenue NE
Austin, MN 55912

Louis G. Bartucci
125 Boardwalk Place, Apt. 302
Chicago, IL 60068

Geraldine Blanton
8420 Lakeside Drive, Apt. 2b
Fort Wayne, IN 46816

Cheryl M. Malden
1632 Sunderland Avenue
Chicago, IL 60616
Jeffrey Sanders
16260 Louis Avenue, Apt. 102
South Holland, IL 60473
Yvonne Singleton
879 Honey Lane
Crete, IL 60417
Dennis F. and Susan R. Martinek
123 Groveland Avenue
Riverside, IL 60546
Darryl and Ann Coney-Bell
7716 S. Saint Lawrence Avenue
Chicago, IL 60619
Emmanuel S. and Connie C. Bansa
2219 Travers Lane
Flossmoor, IL 60422

Denise Woodgett
1528 N. Lee Boulevard
Berkley, IL 60163
Mack Glover
2305 Holiday Terrace, Apt. 135
Lansing, IL 60438
Larry and Belinda Brown
2850 Chase Park Drive, Apt. C
Homewood, IL 60493

&25325$7(',6&/2685(67$7(0(17
Mortgage Electronic Registration Systems, Inc. is a wholly-owned subsidiary of
MERSCORP Holdings, Inc. MERSCORP Holdings, Inc. is owned by Maroon Holding, LLC.
Intercontinental Exchange, Inc. is the only publicly-held corporation that individually owns 10%
or more of Maroon Holding, LLC.

